SIGAR
    380                                         Special Inspector General for
                                                 Afghanistan Reconstruction




                                                               SIGAR Audit 13-13




      Afghan Special Mission Wing: DOD Moving Forward
      with $771.8 Million Purchase of Aircraft that the
      Afghans Cannot Operate and Maintain




                                                                 J U N E
                                                                  2013

SIGAR Audit 13-13/Afghan Special Mission Wing
                                                       June 2013



SIGAR
                                                       Afghan Special Mission Wing: DOD Moving Forward with $771.8
                                                       Million Purchase of Aircraft that the Afghans Cannot Operate and
                                                       Maintain

                                                       SIGAR AUDIT 13-13
Special Inspector General for
Afghanistan Reconstruction                             WHAT SIGAR FOUND
                                                       The Afghans lack the capacity—in both personnel
WHAT SIGAR REVIEWED
                                                       numbers and expertise—to operate and maintain the
The U.S. Department of Defense (DOD)                   existing and planned SMW fleets. For example, as of
developed a “concept of operations” to                 January 23, 2013, the SMW had just 180 personnel—
address a need for air support for                     less than one-quarter of the personnel needed to reach
Afghan Special Forces that execute                     full strength. The NATO Training Mission-Afghanistan and
counternarcotics and counterterrorism                  DOD do not have a plan that identifies milestones and
missions in Afghanistan. In July 2012,                 final dates for achieving full SMW personnel force
the Afghan Special Mission Wing (SMW)                  strength to justify the approved fleet. Ongoing recruiting
was established to meet that need. The                 and training challenges have slowed SMW growth. These
SMW has an existing fleet of 30 aging                  challenges include finding Afghan recruits who are
aircraft, 10 of which are on loan from                 literate and can pass the strict, 18- to 20-month U.S.
the Afghan Air Force; DOD’s concept                    vetting process, a process that attempts to eliminate
calls for 48 new aircraft costing a total              candidates that have associations with criminal or
of $771.8 million.                                     insurgent activity. Further, the Afghan Ministry of
                                                       Defense (MOD) and Ministry of Interior (MOI) have not
This report identifies (1) the extent to
                                                       come to agreement on the command and control
which the SMW has the capacity to
                                                       structure of the SMW, which also adversely impacts
operate and maintain its current and
                                                       SMW growth and capacity. In addition, DOD has not
planned fleet; and (2) the effectiveness
                                                       developed a plan for transferring maintenance and
of U.S. government oversight of two
                                                       logistics management functions to the Afghans.
task orders valued at $772 million to
provide ongoing maintenance, logistics,                Currently, DOD contractors perform 50 percent of the
and supply support to the SMW.                         maintenance and repairs to the SMW’s current fleet of
                                                       30 Mi-17s and 70 percent of critical maintenance and
To accomplish these objectives, we                     logistics management, as well as procurement of spare
obtained data and met with officials
from DOD, the Department of State,
Drug Enforcement Administration, the
SMW, U.S. contractors, and the
Counter-Narcotics Police of
Afghanistan. We also reviewed the
status of the SMW’s current aircraft, as
well as contracts to purchase new
aircraft. Furthermore, we reviewed two
major U.S. task orders that provide
maintenance and repair services to the
SMW, with a total obligation of
approximately $772 million.
We conducted this work in Washington,
D.C., Huntsville, Alabama, and other
U.S. sites; and in Kabul and Kandahar,
Afghanistan, from July 2012 to March
2013.
                                                       SMW flight crews prepare for a training mission in Kabul on October
                                                       30, 2012.


 For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil
parts and materiel. Finally, we found
                                                   WHAT SIGAR RECOMMENDS
that the SMW relies heavily on DOD
to fulfill its counterterrorism                    SIGAR recommends that the Under Secretary of Defense for
responsibilities, a key part of its role.          Acquisition, Technology, and Logistics suspend all activity under
As of January 16, 2013, only 7 of the              the contracts awarded for the 48 new aircraft for the SMW until
47 pilots assigned to the SMW were                 the memorandum of understanding between MOI and MOD is
fully mission qualified to fly with night          completed and signed. Provided the memorandum of
vision goggles, a necessary skill for              understanding between the MOI and MOD is completed and
executing most counterterrorism                    signed, we recommend setting clear personnel and
missions.                                          maintenance and logistics support milestones for the SMW and
                                                   tie the acquisition and delivery of the new aircraft to successful
Despite these problems, DOD has
                                                   completion of these milestones. SIGAR also recommends that
moved forward to purchase 48 new
                                                   NSRWA and the Commander of Deputy Commander Special
aircraft for the SMW. Specifically, in
                                                   Operations Force jointly develop a plan for transferring
October 2012, DOD awarded a $218
                                                   maintenance and logistics management to the Afghans and
million contract to Sierra Nevada
                                                   incorporate the performance metrics and milestones into a
Corporation for 18 PC-12 fixed-wing
                                                   proposed statement of work for the new maintenance and
aircraft, and on June 16, 2013, DOD
                                                   logistics contracting action. Finally SIGAR recommends that the
awarded a $553.8 million contract
                                                   Commander of Army Contracting Command direct NSRWA
modification to Rosoboronexport for
                                                   Contracting Division to modify task orders 20 and 32 to
30 Mi-17 helicopters.
                                                   incorporate performance metrics and appropriate quality
In addition to the challenges related              assurance surveillance plans; ensure that the new
to SMW capacity to operate and                     contract/task order contains these metrics and plans; and
maintain its current or planned fleet,             deploy contracting officer representatives to Afghanistan with
we found that two key DOD task                     the appropriate level of authority and the requisite experience
orders—task orders 20 and 32, which                to effectively oversee contractor support for the SMW.
provide ongoing maintenance,
                                                   SIGAR received formal comments on a draft of this report from
logistics, and supply services to
                                                   the Office of the Secretary of Defense (OSD), the North Atlantic
support the SMW—lack performance
                                                   Treaty Organization Training Mission-Afghanistan/Combined
metrics, and DOD oversight has been
                                                   Security Transition Command-Afghanistan (NTM-A/CSTC-A), U.S.
inadequate. Only one measureable
                                                   Army Materiel Command, and NSWRA. OSD and NTM-A/CSTC-A
outcome was identified in one of the
                                                   did not concur with SIGAR’s recommendation to suspend plans
two task orders—a requirement that
                                                   to acquire new aircraft for the SMW. Both stated that
the contractor maintain the fleet at a
                                                   contracting actions have already been awarded and that the
mission-capable rate of at least 70
                                                   International Security Assistance Force is engaging the Afghan
percent. SIGAR’s review indicates
                                                   government to formulate a charter that would accomplish the
that poor oversight by DOD’s Non-
                                                   same purpose as the planned memorandum of understanding
Standard Rotary Wing Aircraft
                                                   between the MOI and MOD. However, SIGAR maintains that
(NSRWA) Contracting Division
                                                   moving forward with the acquisition of these aircraft is highly
resulted in the contractor failing to
                                                   imprudent until an agreement between the ministries is
properly account for certain aircraft
                                                   reached. SIGAR also notes that, prior to awarding the contract
hours in depot maintenance and a
                                                   for the 30 Mi-17s on June 16, 2013, DOD received a draft of
misrepresentation of readiness.
                                                   this report containing a recommendation to suspend plans to
Further, task orders 20 and 32 do
                                                   purchase new aircraft for the SMW. OSD and NTM-A/CSTC-A
not have quality assurance
                                                   concurred with the other six recommendations in the report.
surveillance plans, and DOD did not
                                                   The U.S. Army Materiel Command responded to the three
have necessary personnel in Kabul
                                                   recommendations addressed to it and concurred with each.
with the right authority and requisite
                                                   NSRWA, similarly, concurred with the two recommendations
experience to effectively oversee U.S.
                                                   addressed to it.
contractor performance.


  For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil
June 28, 2013


The Honorable Charles T. Hagel
Secretary of Defense


This report discusses the results of SIGAR’s audit of U.S. Support for the Afghan Special
Mission Wing (SMW), an air wing supporting counternarcotics and counterterrorism missions in
Afghanistan. On June 3, 2013, we provided a draft of this report to the Department of Defense
(DOD). The draft report included seven recommendations to various DOD entities that would
help protect planned DOD investments in the SMW by (1) suspending major aircraft
acquisitions until the Afghan government takes necessary steps to build SMW capacity, (2)
linking acquisition and delivery of aircraft to key development milestones, and (3) enhancing
DOD oversight of critical functions. Despite our recommendations, the Department awarded a
$553,759,240 contract modification to Rosoboronexport, a Russian government agency, on
June 16, 2013, for 30 Mi-17 helicopters, spare parts, test equipment, and engineering support
services. We maintain that moving forward with the acquisition of these aircraft is imprudent.
This final report includes seven recommendations to improve Afghan commitment and
sustainability of the SMW and effective DOD contractor performance.
When preparing the final report, we considered comments on a draft of this report from the
Office of the Secretary of Defense (OSD), the North Atlantic Treaty Organization Training
Mission-Afghanistan/Combined Security Transition Command-Afghanistan (NTM-A/CSTC-A),
U.S. Army Materiel Command, and the Non-Standard Rotary Wing Aircraft Project Office
(NSRWA). In commenting on a draft of this report, OSD and NTM-A/CSTC-A concurred with six
recommendations; the U.S. Army Materiel Command concurred with the three
recommendations directed to it; and NSRWA concurred with the two recommendations
directed to it. Comments from OSD, NTM-A/CSTC-A, and NSRWA are reproduced in appendices
V and VI. We did not reproduce comments from the U.S. Army Materiel Command because the
command labeled its comments as “For Official Use Only.”
SIGAR conducted this audit under the authority of Public Law No. 110-181, as amended, and
the Inspector General Act of 1978, as amended, and in accordance with generally accepted
government auditing standards.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction

CC: The Honorable John Kerry, Secretary of State; The Honorable Eric H. Holder, Jr., Attorney
        General
                                            TABLE OF CONTENTS
Background .................................................................................................................................................................. 2 

Lack of Personnel and Technical Capacity Put $771.8 Million DOD Investment in SMW At Risk .......................... 5 
DOD’s Execution of Task Orders for Ongoing Maintenance and Logistics Support Failed to Hold Contractor
Accountable for Its Performance .............................................................................................................................. 11 

Conclusion.................................................................................................................................................................. 15 
Recommendations .................................................................................................................................................... 16 
Agency Comments ..................................................................................................................................................... 16 

Appendix I - Scope and Methodology ....................................................................................................................... 18 
Appendix II - Status of Current Mi-17 Fleet .............................................................................................................. 20 
Appendix III - Organizations Supporting The Special Mission Wing ........................................................................ 22 

Appendix IV - Special Mission Wing Structure and Command and Control ............................................................ 24 
Appendix V - Comments from the Office of the Secretary of Defense and the North Atlantic Treaty Organization
Training Mission-Afghanistan/Combined Security Transition Command-Afghanistan and SIGAR’s Response ... 25 

Appendix VI - Comments from the Non-Standard Rotary Wing Aircraft Project Office ........................................... 31 
Appendix VIII - Acknowledgments ............................................................................................................................. 32 

TABLES

Table 1 - Current and Planned Breakdown of SMW Afghan Manning by Job Type.................................................. 6 
Table 2 - SMW Operations Completed from May 1, 2012 through October 14, 2012 ......................................... 10 

Table I - Status of Special Mission Wing Mi-17 Aircraft, as of February 12, 2013. ............................................... 20 
Table II - Organizations Currently Supporting the SMW........................................................................................... 22 

FIGURES

Figure 1 - Planned Aircraft Locations and Breakdown for SMW ............................................................................... 3 
Figure 2 - Contractor Air Interdiction Unit (AIU)/Special Mission Wing (SMW) Fleet Data Versus Army Regulation
(AR) 700-138 (in percent) ......................................................................................................................................... 12 

Figure I - Special Mission Wing Organization and Command Structure ................................................................. 24 

PHOTOS

Photo 1 - Mi-17s at Kabul International Airport ......................................................................................................... 2 
Photo 2 - SMW Warehouse in Kabul .......................................................................................................................... 5 
Photo 3 - English Language Training .......................................................................................................................... 7 
Photo 4 - Mi-17 Undergoing Maintenance ................................................................................................................. 8 




SIGAR Audit 13-13/Afghan Special Mission Wing                                                                                                                         Page i
                            TABLE OF CONTENTS


ABBREVIATIONS

            ANA                     Afghan National Army
            COR                     Contracting Officer Representative
            CSTC-A                  Combined Security Transition Command - Afghanistan

            DCOM-SOF                Office of the Deputy Commanding General, Special Operations Forces
            ETT                     Embedded Training Team
            ISAF                    International Security Assistance Force
            MOD                     Ministry of Defense
            MOI                     Ministry of Interior
            NATO                    North Atlantic Treaty Organization

            NSRWA                   Non-Standard Rotary Wing Aircraft
            NTM-A                   NATO Training Mission - Afghanistan
            SMW                     Special Mission Wing




SIGAR Audit 13-13/Afghan Special Mission Wing                                                        Page ii
According to the United Nations Office on Drugs and Crime, about 90 percent of the world’s opium comes from
Afghan fields, and Afghanistan is a major producer of hashish, a drug produced from cannabis. Intelligence
indicates that profits from the Afghan drug trade are being used to finance the Taliban and other insurgent
groups operating in the region. In 2009, Afghan drug traffickers earned around $2.2 billion, Afghan farmers
earned about $440 million, and Afghan Taliban earned around $155 million from Afghanistan’s narcotics
trade.1
The Afghan National Army (ANA) Special Operations Forces’ mission is to combat the narcotics trade and
terrorism in Afghanistan. In December 2011, the North Atlantic Treaty Organization Training Mission–
Afghanistan (NTM-A), under the International Security Assistance Force (ISAF), identified a need to provide air
support to these Special Operations Forces. NTM-A developed a concept of operations for an Afghan air wing
dedicated to special operations. Subsequently, the Afghan government commissioned its Special Mission Wing
(SMW) in July 2012. Since then, the U.S. Department of Defense (DOD) has provided nearly $122 million to
support and mentor the SMW so that it becomes an independent and self-sustaining aviation unit capable of
conducting professional counternarcotics and counterterrorism missions.2 Additionally, to provide an enduring
air capability to support these missions, DOD has awarded two contracts totaling approximately $771.8 million
to purchase new aircraft─18 fixed-wing aircraft and 30 rotary-winged aircraft─for the SMW. In addition to this
$772 million investment, there will be $109 million per year required for oversight, maintenance, training, and
logistics support that DOD intends to provide the SMW over the next several years.3
This audit assesses (1) the extent to which the SMW has the capacity to operate and maintain its current and
planned fleet; and (2) the effectiveness of U.S. government oversight of two task orders valued at $772 million
to provide ongoing maintenance, logistics, and supply support to the SMW.
To accomplish these objectives, we obtained data and met with officials from DOD, the U.S. Department of
State, the U.S. Drug Enforcement Administration, U.S. contractors, the Afghan SMW, and the Afghan Counter-
Narcotics Police. SIGAR also reviewed the history and status of all aircraft currently committed to the SMW, as
well as a contract to purchase new fixed-wing aircraft and plans to purchase new rotary-winged aircraft.
Further, SIGAR analyzed two major U.S. task orders that provide ongoing maintenance and supply services to
the SMW, with a total obligation of approximately $121.9 million since the SMW’s commissioning in July
2012.4 SIGAR conducted work from July 2012 to March 2013 in Washington, D.C., Huntsville, Alabama, and
other U.S. sites, and at sites in Kabul and Kandahar, Afghanistan, in accordance with generally accepted
government auditing standards. A discussion of the scope and methodology is in appendix I.




1United Nations Office on Drugs and Crime, The Global Afghan Opium Trade – A Threat Assessment, July 2011. Afghan
drug trade figures after 2009 are not yet available.
2Funding   to support the SMW comprises DOD counternarcotics funds and Afghanistan Security Forces Funds.
3U.S. program managers for the SMW estimate sustainment costs (including maintenance, mentoring, training, and parts)
for the existing fleet of rotary-wing aircraft at $109 million per year; however, costs to maintain a new fleet of rotary-wing
aircraft (as planned) might be less since new aircraft would cost less to maintain than the current aging fleet. There would
also be an additional unknown cost to maintain the new fixed-wing aircraft.
4These  amounts may not include all obligations to support the SMW under these task orders because some of the funds
obligated prior to July 2012 – when the contractor supported the Afghan Air Interdiction Unit – may have been spent to
support the SMW’s initial mobilization costs. Obligations during the full performance period of the task orders (as of April 1,
2013, and including the Ministry of Defense support) totaled approximately $772 million.




SIGAR Audit 13-13/Afghan Special Mission Wing                                                                           Page 1
BACKGROUND

At a December 2011 Special Operations Summit, ISAF senior leadership identified the development of air
support capacity as a priority for improving Afghan military capabilities for counterterrorism and other special
operations missions. To respond to this need, NTM-A sponsored a RAND study to assess requirements and
provide recommendations.5 The study’s recommendations discussed different scenarios for the planned size—
in terms of both personnel and aircraft—of air support, the command structure, and scope of operations.
NTM-A determined that the Afghan Ministry of Interior’s (MOI) existing Air Interdiction Unit,6 a counternarcotics-
focused unit, would provide the best foundation to develop an Afghan counterterrorism and special operations
aviation capability, while maintaining critical counternarcotics efforts. On May 12, 2012, NTM-A issued a
military order identifying its concept for the establishment of the SMW.7 On July 18, 2012, the ANA
commissioned the SMW, which replaced the Air Interdiction Unit.


NTM-A’s Concept for the SMW Calls for 48 New Aircraft and 806 Personnel

Based on RAND’s study, NTM-A developed
a “concept of operations” that defined the    Photo 1 - Mi-17s at Kabul International Airport
SMW mission and organizational structure
and established aircraft and personnel
requirements. NTM-A intended the SMW
to conduct aviation operations in direct
support of the MOI and Ministry of
Defense (MOD) counternarcotics,
counterterrorism, and special operations
forces across Afghanistan. NTM-A
recommended that the ANA Special
Operations Command have operational
control over the SMW, but the MOI and
MOD would initially share administrative      Source: SIGAR site visit, October 23, 2012
control, including management of
personnel and mission development (see appendix III for SMW structure and command and control). NTM-A
favored a full transition of the SMW to MOD administrative control, pending the approval of each ministry.
To reach full operational capacity, the NTM-A concept calls for 806 Afghan personnel, including pilots, flight
engineers, mechanics, and security staff to support the SMW. The concept also calls for the SMW to have 30
rotary-wing and 18 fixed-wing aircraft organized into four squadrons: two based in Kabul, one in Kandahar, and
one in Balkh province. Each squadron is designed to include seven Mi-17s (the selected rotary-wing aircraft)8

5RAND  Corporation, Afghan National Army Special Operations Forces: An Assessment of Aviation Requirements, December
2011. RAND Corporation is a nonprofit institution that helps improve policy and decision making through research and
analysis. Its research is commissioned by global clientele including government agencies, foundations, and private-sector
firms.
6Inmid-2006 the U.S. government funded the establishment of the Afghan Air Interdiction Unit to support counternarcotics
law enforcement operations in Afghanistan. The unit provided general helicopter support to the police. Mentored by the
U.S. Army and United Kingdom Royal Air Force, the unit also executed counternarcotics operations with partnered special
operations forces.
7Established   under fragmentary order 12-391.
8In2005, the U.S. Central Command determined that the Russian-built Mi-17 was the best available platform to rebuild
Afghan rotary-wing capabilities. The Afghans had 30 years of experience with Mi-17s, and the U.S. had 6 Mi-17s in its




SIGAR Audit 13-13/Afghan Special Mission Wing                                                                     Page 2
and four PC-12s (the selected fixed-wing aircraft).9 (See photo 1 of Mi-17s at Kabul International Airport.) In
addition, the MOI would have a detachment of two Mi-17s and two PC-12s for missions that support the rest of
the MOI, including casualty evacuation support. (See figure 1 for planned location and breakdown of aircraft.)
The original NTM-A concept called for the two Kabul-based squadrons to be in place by the end of 2012, the
Kandahar squadron by the end of 2013, and the Balkh squadron by the end of 2014.

     Figure 1 - Planned Aircraft Locations and Breakdown for SMW




     Source: SIGAR graphic of NTM-A concept of operations

Once delivered, the new Mi-17s will replace the SMW’s existing fleet of 30 aging aircraft. The SMW currently
has 30 Mi-17s at its disposal, with 20 older aircraft obtained from: the United States (13), United Kingdom (5),
and Germany (2). It also has 10 aircraft on loan from the Afghan Air Force. However, because of the
maintenance needs of the aging aircraft, only about half of the fleet is mission ready at any given time, most of
which are the aircraft from the Afghan Air Force.10 (For a complete description of the status of the Mi-17 fleet,
including origin and age, see appendix II.)


inventory. In addition, 19 more Mi-17s had been donated to the Afghan government from other sources. The Mi-17s were
considered inexpensive, easy to fly and maintain, and available for purchase.
9A former Assistant Commanding General Special Operations Forces Mobility Commander who was involved in early SMW
planning recommended the PC-12 to be the SMW’s fixed-wing asset because it has more horsepower and is roomier than
the alternatives. Further, the PC-12 has a pressurized cabin, which allows it to fly at a higher altitude and is quieter, which
facilitates training.
10Analysisof the older aircraft shows 19 of the 20 are more than 18 years old, while 10 are at least 25 years old. The
average mechanical Mi-17 lifespan is 35 years, with a service life extension performed after 25 years to add additional
years (based on the condition of the airframe). As of October 15, 2012, 9 of the Mi-17s were in depot maintenance outside
of Afghanistan. The remaining fleet is stationed at the Kabul International Airport.




SIGAR Audit 13-13/Afghan Special Mission Wing                                                                            Page 3
The SMW’s current fleet does not have any fixed-wing aircraft. However, on October 13, 2012, the U.S. Air
Force Life Cycle Management Center awarded a $218 million contract11 to Sierra Nevada Corporation to
purchase 18 new PC-12s.
On June 16, 2013, DOD awarded a $553.8 million contract modification to Rosoboronexport—the sole Russian
government agency selling Russian-made defense items and military hardware—for 30 Mi-17 rotary-wing
aircraft. DOD had delayed this contract action because of political considerations associated with U.S.
transactions with this vendor. Specifically, under the fiscal year 2013 National Defense Authorization Act,
Congress prohibited contracting with Rosoboronexport. However, by using fiscal year 2012 funds for the
award, DOD concluded that it was legally able to proceed with this purchase.
Multiple organizations support the development of the SMW. For example, the Deputy Assistant Secretary of
Defense for Counternarcotics and Global Threats in Washington, D.C., provides U.S. counternarcotics funding
for the SMW. The Non-Standard Rotary Wing Aircraft (NSRWA) Program Management Office in Huntsville,
Alabama, provides program management and contract management services for DOD’s support of the SMW. In
Afghanistan, the Office of the Deputy Commanding General, Special Operations Forces’ (DCOM-SOF)
Embedded Training Team (ETT) supervises training of SMW Afghan pilots, flight engineers, and mechanics. (For
a complete list of organizations supporting the SMW and their roles, see appendix III.)


DOD Obligated Nearly $122 Million on Two Key Task Orders to Provide Ongoing
Maintenance and Logistics Support to the SMW
DOD has awarded multiple contracts and task orders to support and develop the SMW. The Federal Acquisition
Regulation states that performance-based acquisition is the preferred method for acquiring services. Agency
officials are responsible for accurately describing the need to be filled, or problem to be resolved, through
contracting to ensure full understanding and responsive performance by contractors. For service contracts,
program officials should describe the need to be filled using performance-based acquisition methods.12 U.S.
Army Space & Missile Defense Command wrote task orders 20 and 32, currently valued at nearly $772 million,
as level-of-effort type task orders, providing extensive listings of contractor duties.13
Our audit focuses on these two large task orders that provide ongoing aircraft maintenance and logistical
support services.14 Specifically, the U.S. Army Space & Missile Defense Command awarded:
            Task order 2015 on September 26, 2008, to Northrop Grumman to provide maintenance and logistics
             support services for Afghan MOI and MOD air assets, as well as training for Afghan pilots, flight
             engineers, and mechanics.16 As of April 4, 2013, the amount obligated was approximately $364.6
             million, with approximately $50.7 million supporting the SMW since its inception in July 2012.




11   Contract FA8620-13-C-4007.
12Federal     Acquisition Regulation section 37.102 (a) and (e).
13DOD  obligated $365 million on task order 20 and $407 million on task order 32. These amounts reflect obligations to
provide services for the Afghan MOD as well as the SMW, as of May 6, 2013.
14U.S. Army Space and Missile Defense Command awarded the task orders. To achieve demonstrable “synergies,

efficiencies, and benefits”, the task orders were realigned under Army Contracting Command – Redstone in October 2011.
Currently, NSRWA Contracting Division under Army Contracting Command – Redstone manages the task orders.
15Contract W9113M-07-D-0007, task order 20, is a firm fixed-price level of effort task order with cost-plus-fixed-fee

contracting line items for cost reimbursable travel, Defense Base Act insurance, materiel, and other direct costs.
16Part     of the task order covers the SMW and part covers other MOD assets including the Afghan Air Force.




SIGAR Audit 13-13/Afghan Special Mission Wing                                                                           Page 4
        Task order 3217 on September 30, 2009, to Lockheed Martin Integrated Systems, Inc. for
         procurement of materiel and spare parts in support of MOI and MOD air maintenance and repair
         options. As of February 21, 2013, the total obligated amount on task order 32 was approximately
         $407.1 million, with approximately $71.2 million supporting the SMW since its inception.
Coordination between the two contractors is necessary to maintain efficiency since one contractor maintains
the aircraft and identifies parts requirements, and the other contractor actually orders the parts. Contractors
perform their maintenance and logistics functions at the Kabul International Airport and store spare parts and
supplies at a warehouse there (see photo 2). Task orders 20 and 32 each provide services for both the MOI
and the MOD; however, each task order lists the services for each ministry separately and the contractors have
separate teams supporting each ministry. Services to support the SMW fall under the MOI task order line
items.


LACK OF PERSONNEL AND TECHNICAL CAPACITY PUT $771.8 MILLION DOD
INVESTMENT IN SMW AT RISK

The SMW lacks the capacity—both in
personnel numbers and expertise—to operate
and maintain its current and planned fleets,     Photo 2 - SMW Warehouse in Kabul
and NTM-A and DOD do not have personnel
or performance milestones requiring the
SMW to develop the necessary capacity
before DOD acquires and delivers the full
complement of aircraft for the SMW at a cost
of $771.8 million for 30 new Mi-17s and 18
PC-12s.18 The NTM-A concept of operations
calls for an SMW comprising 806 personnel
at full strength, and DOD officials call for the
SMW to have full operational capability by
July 2015. However, as of January 23, 2013,
the ETT Commander confirmed that the SMW
had just 180 personnel—less than one-
quarter of the personnel necessary to meet
full operational capacity. Moreover, although
the original NTM-A concept called for the two
Kabul-based squadrons to be in place by the
end of 2012, NTM-A later shifted the date
calling for the two squadrons to be in place
by mid-2013. However, neither squadron had       Source: SIGAR site visit. SMW warehouse in Kabul, on October 23,
                                                 2012
been fully established as of May 15, 2013.
Because of the shortages in personnel and
capacity, U.S. military personnel and DOD contractors currently join Afghans when the ETT assembles flight
crews for SMW operational missions.

17Contract  W9113M-07-D-0006, task order 32, is a firm fixed-price level-of-effort task order with cost-plus-fixed-fee line
items for travel (no fee), DBA insurance (no fee), labor, materiel, and other direct costs.
18The SMW intends to return the 10 younger Mi-17s to the Afghan Air Force if the U.S. procures new Mi-17s. In addition, if

the procurement is completed, the U.S. has no plans to continue the overhaul of the other 20 aging Mi-17s.




SIGAR Audit 13-13/Afghan Special Mission Wing                                                                           Page 5
The NTM-A concept and documentation of the DOD purchase approval do not identify timelines, milestones, or
position staffing levels that the SMW should meet to achieve the full staffing levels required to operate and
maintain the new aircraft.19 However, the ETT Commander stated that the staffing level of job types for the
planned force of 806 would likely parallel the staffing level for the current force, i.e. the same ratios as the
current force. Table 1 shows the breakdown of the SMW force at its current size and its planned size, based on
the ratios of the existing force.
        Table 1 - Current and Planned Breakdown of SMW Afghan Manning by Job Type
                    Job Type                  Current Number of              Planned Full Force (Date
                                              Staffing Positionsa                Undetermined)

         Pilot                                           42                              188

         Crew Chief/Flight Engineer                      32                              143

         Mechanic                                        86                              385

         Security                                        20                               90

         Total                                          180                              806

         Source: SIGAR analysis of NTM-A and ETT data and interviews.
         aPositions   current as of January 23, 2013.

Despite the SMW’s ongoing personnel shortages and lack of capacity, and despite no clear DOD plan to
transfer critical functions to the SMW, DOD plans to proceed with the $771.8 million purchase of 30 Mi17s
and 18 PC-12s under its contracts with Rosoboronexport and Sierra Nevada Corporation, respectively. While
the aircraft requirements identified by NTM-A are clear, making such a sizeable purchase without clearly linking
delivery to SMW development could result in wasted funds, more aircraft than the SMW can operate or
maintain, and a requirement for DOD to support the wing—at a cost of more than $100 million per year—for
years to come.20
The SMW Faces Significant Recruiting and Training Challenges
SMW recruiting and training efforts are ongoing to address these shortfalls in SMW personnel, but there are
significant recruiting and training challenges. According to DOD and Drug Enforcement Administration officials,
these challenges include finding Afghan recruits who are literate and can pass the strict, 18 to 20-month U.S.
vetting process—a process that attempts to eliminate candidates that have associations with criminal or
insurgent activity. The ETT Commander explained that the Afghans identify recruits, the ETT executes its vetting
process, and the Afghan SMW Commander makes the final decision about which recruits to approve.
According to SMW leadership, the unit prefers recruits who are at least literate in their own language (recruits
must also be trained in English—photo 3 shows SMW mechanics attending an English training). However,
based on this stipulation, even the initial recruiting pool is limited because the Afghan populace is largely




19A former DCOM SOF official who played a major role in developing the concept of operations stated NTM-A’s concept was

to pursue the aircraft first and then recruit and train the personnel necessary for operation.
20The$100 million cost for operations and maintenance refers just to expenses associated with the full complement of 30
Mi-17s and does not include costs for operating and maintaining the PC-12 fixed-wing aircraft that will also support the
SMW.




SIGAR Audit 13-13/Afghan Special Mission Wing                                                                    Page 6
illiterate with only 26 percent of the adult population having basic literacy.21 U.S. officials also stated that many
potential recruits are disqualified from service due to prior or ongoing relationships with criminal elements.

Additionally, according to training officials, the
                                                              Photo 3 - English Language Training
flow of Afghan trainees from initial rotary-wing
training at Ft. Rucker, Alabama, to the Mi-17-
specific training in the Czech Republic has been
slow and uneven, ranging from a low of two up to
eight trainees at a time.22 The Mi-17 Product
Director at NSRWA stated that the transition of
Afghan pilots and flight engineers from the Fort
Rucker training to Mi-17 training in the Czech
Republic has been slow due to the lack of a
steady stream of DOD funding for training, failed
background checks on the part of pilots and flight
engineers, and the Czech government’s
requirement that each Afghan class participant
have an end-user certificate signed by Afghan
ministers.23
According to the SMW Deputy Commander,                Source: SIGAR site visit. A U.S. contractor teaches English to
                                                      Afghan mechanics in Kabul, October 23, 2012.
compensation, especially for mechanic trainees,
is also a factor contributing to low levels of
recruitment because Afghan personnel with a basic command of English are in high demand and can earn
higher pay elsewhere. The Deputy Commander further stated the compensation levels for all positions are not
commensurate with the rare literacy and education skills that the SMW requires from recruits. The recruiting
challenge is particularly acute for mechanics, who do not receive incentive bonuses that pilots and flight
engineers receive for attending training.
Ongoing tensions between the MOI and MOD over administrative control of the SMW also impacts recruitment.
The NTM-A concept calls for the transfer of SMW from joint MOI/MOD to strictly MOD command and control.
The ETT Commander pushed the Afghan government to make the transition by January 2013—although it did
not happen—because he believes the transition will allow the SMW to leverage the recruiting efforts and
resources of the Afghan Air Force. The Afghan government has generated a draft memorandum of
understanding between MOI and MOD to transfer the command authority of the SMW to the MOD. 24 The

21United Nations Office of Drugs and Crime, National Risk and Vulnerability Assessment 2007/8: A profile of Afghanistan.

October 2009.
22Once pilots and flight engineers are vetted and achieve the required English competency, they enroll in Initial Entry Rotary

Wing training at Fort Rucker, Alabama. This course involves primary aircraft training, followed by instrument training and
basic war fighting skills. The entire course lasts about 22 weeks. After passing this initial training course, pilots must
complete advanced Mi-17-specific training in the Czech Republic. Mi-17-specific training is expected to transfer to Fort
Rucker, with training in the Czech Republic intended as a bridge until Fort Rucker is ready to take over that part of the
training.
23The Czech Republic requires an end-user certificate for all trainees to ensure the appropriate use of the knowledge, skills,
and abilities transferred to the students as a result of the training. Typically, end-user certificates are used in international
arms transfers to certify that the buyer is the final recipient of the materials and is not planning to transfer the materials to
another party.
24The ETT Commander stated this commitment to support MOI police missions is critical to gaining MOI endorsement of the

plan. The draft memorandum describes SMW missions and states that under the agreement MOD would agree to apportion
approximately one in every four missions to MOI element support based on intelligence and target development. MOD
would further agree to support MOI requested missions with a minimum of four SMW Mi-17 helicopters and two PC-12s.




SIGAR Audit 13-13/Afghan Special Mission Wing                                                                            Page 7
memorandum states that, effective upon publication, the ministries agree the SMW will fall under the
command authority of the MOD and be assigned to the ANA Special Operations Command.25 Nevertheless, the
memorandum is still in draft form and remains unsigned by the ministries due largely to MOI resistance to
surrendering authority over the SMW.
Further, according to the ETT Commander, the MOD is unwilling to allow SMW recruitment from its ranks
without assurances that the pilots, once trained, will remain under its control. The ETT Commander stated that
he expects recruitment to improve when the two ministries agree on the planned memorandum of
understanding that completes the SMW’s transition to the MOD.26 The ETT Commander also stated many new
recruits will come from the Afghan Air Force and he stated 15 fixed-wing pilots will be absorbed by the SMW
from the MOD when the memorandum of understanding is complete.

In addition to the recruitment challenges, in the task order 20 November and December 2012 monthly
progress reports, the contractor reported the following issues were negatively impacting training:
          Maintenance challenges caused a 31 percent decrease in available Northrop Grumman training
           hours.
          Northrop Grumman lost training flights due to SMW crew members not showing up for scheduled
           training.
          The SMW’s flight simulator in Kabul has been inoperable since September 2012 due to lack of
           needed repairs and an expired warranty.


The SMW Relies Heavily on DOD for                                 Photo 4 - Mi-17 Undergoing Maintenance
Maintenance and Logistics Support
Compounding the challenges faced in recruiting and
training personnel, the SMW may not be able to
perform maintenance and logistics support function on
its own without continued assistance from DOD.
According to the responsible contractors, they perform
50 percent of the maintenance and repairs to the
SMW’s current fleet of Mi-17s, with SMW Afghan
mechanics performing the rest under the contractor’s
mentorship at a hangar at Kabul International Airport
(see photo 4). The contractors also stated that they
perform 70 percent of logistics and maintenance
management,27 as well as procurement of spare parts
and materiel (under task order 32).28 U.S. military, U.S.         Source: SIGAR site visit to SMW hangar in Kabul on
                                                                  October 23, 2012

25The  memorandum also discusses command authorities for mission prioritization, allocation of SMW resources, and
conflict resolution, and identifies continued support that would be provided to the MOI.
26The   ETT referred to the memorandum of understanding as a “cipher.”
27Maintenance   under task order 20 includes managing schedules for routine aircraft maintenance and maintaining aircraft
air worthiness certificates by tracking and recording repairs and maintenance for each aircraft. Task order 20 also requires
logistics support which comprises warehouse management and inventory control. Task order 20 requires the contractor to
provide training to Afghan maintainers, but is not specific regarding training or assistance to Afghans in establishing a
maintenance management system.
28Task order 32 requires repair of repairable parts services and procurement services but does not contain provisions for

training Afghans. There is no training requirement under task order 32.




SIGAR Audit 13-13/Afghan Special Mission Wing                                                                        Page 8
Drug Enforcement Administration, and contractor personnel all acknowledge that this type of support is
essential for the sustainment of the SMW beyond the U.S. military drawdown scheduled for 2014. However,
the ETT Commander and U.S. government contractors acknowledge that the Afghan government will not be
able to independently perform maintenance and logistics support functions for at least 10 years.
While the NTM-A concept for the SMW discusses aircraft and staffing in general terms, it does not contain any
discussion of logistics and maintenance support. Furthermore, DOD does not have a formal plan for
transferring this critical support responsibility to Afghan control. Consequently, neither task order 20 nor task
order 32 identifies how or when the contractor should begin transitioning management responsibilities to the
SMW or specify associated training and performance measures.
Senior Northrop Grumman officials in Afghanistan stated that the SMW does not provide enough Afghans with
sufficient education to perform these logistic and maintenance support functions. As a result, they have
elected to directly hire some local Afghans with stronger skills than the skills demonstrated by the Afghans
provided by the SMW. Northrop Grumman is training these new hires on maintenance management, in hopes
of building the early stages of an Afghan civilian service to support the Afghan military. The officials stated that
training direct local hires is better than training the Afghans serving in the SMW because the direct hires are
accountable to the contractor. Northrop Grumman is taking this approach on its own; the task order 20
performance work statement has no such requirement.


The SMW Is Largely Incapable of Fulfilling Its Counterterrorism Responsibilities
The SMW lacks the capacity to conduct counterterrorism missions—part of its stated role. Key stakeholders—
including U.S. Drug Enforcement Administration officials, who sometimes fly with the SMW—were pleased with
the SMW’s responsiveness to counternarcotics mission requests and stated that the SMW successfully
executes its traditional, counternarcotics mission, even at times independent of U.S. and allied forces.
However, the SMW has conducted very few “pure” counterterrorism missions,29 in part because
counterterrorism missions are primarily flown at night, requiring pilots certified to fly using night vision goggles.
As of January 16, 2013, only 7 of the 47 pilots assigned to the SMW were fully mission qualified to fly with
night vision goggles. From SMW conception in May 2012 to our in-theater field work in October 2012, the SMW
conducted 25 operations, only one of which was a pure counterterrorism mission.30 (See table 2 for a category
breakout of these missions.)




29According to the ETT Commander, a “pure” counterterrorism mission is a counterterrorism mission that has no nexus to a

counternarcotics mission. As Afghan pilots gain experience in night flying, the SMW expects to fly more counterterrorism
missions.
30In January 2013, the ETT Commander stated that the current operations tempo is 80 percent counternarcotics missions

and 20 percent counterterrorism missions.




SIGAR Audit 13-13/Afghan Special Mission Wing                                                                    Page 9
        Table 2 - SMW Operations Completed from May 1, 2012, through October 14, 2012
                        Type of Mission                                   Number of Missions

         Counternarcotics Nexusa                                                     14

         Counterterrorism                                                             1

         MOI Supportb                                                                10

         Total Operations                                                            25

         Day                                                                         22

         Night                                                                        3

         Source: SIGAR Analysis of Office of the Deputy Commanding General Special Operations Forces data,
         10/14/12
         Notes:
         aAccording to the ETT Commander, missions can support both counternarcotics and counterterrorism
         at the same time. Counternarcotics Nexus indicates missions that have at least some connection to
         the counternarcotics mission, as opposed to a “pure” counterterrorism mission.
         bMOI  Support missions refer to missions in support of the rest of MOI that are of general support
         nature, including human remains transfer, casualty evacuation support, and missions the Minister
         directs for immediate launch.



According to the ETT Commander, until the MOI and MOD sign the memorandum of understanding, MOI
personnel assigned to the SMW cannot conduct counterterrorism missions because their life insurance
coverage, which was provided through the MOI, does not cover deaths resulting from these types of missions.
The transition of command and control to the MOD would mean that the MOI personnel would become MOD
personnel and covered by MOD life insurance when conducting counterterrorism missions. The ETT
Commander also stated that 15 MOD fixed-wing pilots will be absorbed into the SMW after the memorandum
is complete.
Another potential impediment to the SMW’s successful completion of its newly expanded counterterrorism
mission is the size of the ETT. Because of restrictions on contractors as warfighters—codified in the Geneva
Conventions—contractors are prohibited from participating in pure counterterrorism missions. As a result, the
SMW largely relies on the ETT to support the counterterrorism missions that it cannot independently execute.
However, as of May 2013, the ETT had filled only 10 of its 14 positions and was facing challenges increasing
its size beyond the 14 authorized positions. In September 2012—to coincide with the SMW’s planned growth in
end strength from 180 to 806—DCOM-SOF requested a total of 23 ETT positions. As a result of a shrinking
international footprint throughout Afghanistan, however, NTM-A instructed DCOM-SOF to lower its request.
Nevertheless, the DCOM-SOF Commanding Officer believes the additional trainers are required and told us that
he would again request additional ETT personnel following the planned U.S. military reorganizations in 2013-
2014.




SIGAR Audit 13-13/Afghan Special Mission Wing                                                                 Page 10
DOD’S EXECUTION OF TASK ORDERS FOR ONGOING MAINTENANCE AND
LOGISTICS SUPPORT FAILED TO HOLD CONTRACTOR ACCOUNTABLE FOR ITS
PERFORMANCE

In addition to our review of SMW capacity to operate and maintain its current and planned fleet, we reviewed
DOD oversight of ongoing maintenance, logistics, and supply services under two major DOD task orders that
support the SMW. In general, we found that an absence of measurable outcomes, as well as poor contract
oversight and quality assurance practices, limited DOD’s ability to assess whether the contracts were achieving
their intended purposes and presented opportunities for the contractor to underperform. We also found that
these two task orders are set to expire soon and that NSRWA has not yet issued or taken meaningful action to
issue a new contract. As a result, there is concern that ongoing operations and/or support may be interrupted.


DOD Task Orders Lack Performance Metrics
We only identified one measureable outcome in one of the two task orders—a requirement under section 7.2.2
of task order 20 for the contractor to maintain assigned aircraft in theater at a fully mission capable rate at or
above 70 percent.31 However, the task order does not set any consequences for failing to meet that rate.
Specifically, we found that Northrop Grumman failed to properly account for certain aircraft hours in depot
maintenance, resulting in a misrepresentation of readiness. When calculating the total hours that aircraft are
on hand for the reporting period, Northrop Grumman is required to include hours that aircraft are in depot
maintenance, unless the aircraft has been transferred to another facility. Starting with the SMW’s inception in
July 2012, Northrup Grumman failed to calculate the correct hours, resulting in over-reporting the fully mission
capable rate for every monthly period.32 This miscalculation meant the contractor did not actually achieve the
prescribed 70 percent fully mission capable rate for 3 of the 5 months for which reporting was available. (See
figure 2 for details on the differences between the reported rates and the actual rates.) Further, task order 20
requires the reporting format outlined in Army Regulation 700-138 calling for the “Commander,” or
government representative, to review, sign, and submit the form reporting the readiness rates. However, the
contractor—not the U.S. military commander or government representative—signed the forms it submitted to
NSRWA.




31Army Regulation 700-138 defines fully mission capable as “a status condition where fully operational equipment or
systems are safe and correctly configured as designated by the U.S. Army. Equipment is fully mission capable when it can
perform all of its combat missions without endangering the lives of crew or operators.”
32A   “monthly period” runs from the 16th day of a month to the 15th day of the following month.




SIGAR Audit 13-13/Afghan Special Mission Wing                                                                    Page 11
      Figure 2 - Contractor Air Interdiction Unit (AIU)/Special Mission Wing (SMW) Fleet Data Versus
      Army Regulation (AR) 700-138 (in percent)




      Sources: SIGAR analysis of Northrop Grumman data and U.S. Army Regulation 700-138.

The performance work statement for task order 20 also requires Northrop Grumman to provide aircraft
maintenance, flight training, and operational support for SMW missions.33 The performance work statement
describes the types of training required, but does not identify measureable outcomes to determine if the
training achieves results. For example, section 3.4 of the task order states, “Contractor instructor pilots shall
be responsible for leading, training and advising student pilots progressively to full mission qualification across
all country unique terrain and weather conditions.” However, there are no measurements or timelines for
these outcomes. Section 3.4 contains flight training requirements and states that Northrop Grumman’s
instructor pilots “shall provide hands on training in the configuring of the aircraft for missions… [and]…visually
and orally discuss/summarize tactics, techniques and procedures,” but does not identify metrics to assess
whether the training is achieving results. In October 2012, Northrop Grumman contractors stated night vision
goggle training had only recently been added to task order 20, even though this type of training had been a
program goal for some time and had not been executed. As discussed earlier in this report, delays in this type
of training will impact the number and experience of SMW pilots available to fly these types of missions.
Similarly, task order 32 performance work statement describes the contractor’s—Lockheed Martin’s—duties
and identifies deliverables such as progress reports and a management plan, but it does not provide specific
measures of the quality of services.



33A performance work statement for performance-based acquisitions describes the required results in clear, specific, and
objective terms with measurable outcomes.




SIGAR Audit 13-13/Afghan Special Mission Wing                                                                    Page 12
DOD Oversight of Contractor Performance under Task Orders Was Limited
NSRWA Contracting Division is responsible for overseeing contractor work on the task orders, including fleet
readiness reporting. With better oversight, an NSRWA contracting officer representative (COR) might have
identified Northrop Grumman’s failure to calculate the correct fleet readiness, provided decision-makers with
accurate data, and evaluated Northrop Grumman more effectively. The contracting officer responsible for
these task orders is responsible for deciding the need for an individual(s) to serve as an authorized
representative for purposes of monitoring the technical or administrative aspects of contractor performance
during the life-cycle of a contract. Contracting officers must delegate specific authorities to a COR to perform
the functions needed to ensure the contractor provides quality products and services, in accordance with their
contracts.
In March 2011, the contracting officer for task orders 20 and 32 appointed the current COR to monitor the
contractors. According to the COR’s appointment letter, the COR must keep the Contracting Officer, “…fully
informed of any technical or contractual difficulties encountered during performance,” and “assure the KO
[contracting officer] that the contractor is performing the technical requirements of the contract/task order in
accordance with contract terms, conditions, and specifications.” The appointment letter further states the COR
should, “implement government contract quality assurance actions in accordance with the Federal Acquisition
Regulation… and the task order quality assurance surveillance plan.” The letter notes that the COR must
“observe, monitor, and assess the contractor’s performance under the terms of the contract/task order,” and
“perform routine inspections of the contractors’ work products and deliverables,” which requires the COR to
have a regular presence at the place of performance.
The principle COR34 for task orders 20 and 32 (also responsible for at least seven other task orders) works
from Redstone Arsenal in Huntsville, Alabama. The COR stated he relies on the contractor’s deliverables and
teleconferences to oversee performance. Based upon the duties assigned in the COR’s appointment letter, the
COR cannot properly execute the oversight responsibilities outlined in his appointment letter from Alabama.
For example, the COR cannot observe contractor work or perform inspections. Northrop Grumman officials
stated that an in-country COR would be useful for providing feedback to the contractors regarding their
performance. The contractors also stated that NSRWA did not have awareness of security threats to the
contractors, whose camp is located near the airport, and the effect security threats have on the contractor’s
ability to perform.
To demonstrate evaluation of contractor performance, NSRWA provided us with a document called
“Contractor’s Quarterly Interim Progress Report,” dated November 22, 2011. However, this report only
evaluates one quarter for one task order, and NSRWA has not completed any additional evaluations. The
completed report evaluates Lockheed Martin’s performance on task order 32 for the period of August 2011
through October 2011. The evaluator rated the contractor’s performance as satisfactory, or better, in all
categories. However, the report does not include the name of the evaluator—so it is not clear that it was
prepared by an authorized official—and the evaluation did not provide any quantitative measures and is not
tied to a quality assurance surveillance plan.
To help ensure some Afghanistan-based oversight of these task orders, NSRWA deployed representatives in
2012 to Afghanistan, but these representatives were not formally appointed with specific oversight
responsibilities. For example, when we visited the SMW in October and November 2012, one NSRWA “liaison”
was present, but the liaison did not have any formal oversight responsibilities for the task orders. When we met
with NSRWA in January, a senior program management official stated that NSRWA was taking action to
improve oversight. The NSWRA liaison in Kabul was appointed as a COR for task orders 20 and 32 in
December 2012, and a second individual was appointed as a COR on task order 20 in the same month.

34NSRWA   Contracting Division appointed two additional CORs for task order 20 in Afghanistan in December 2012.




SIGAR Audit 13-13/Afghan Special Mission Wing                                                                     Page 13
Although NSRWA contracting presence in Afghanistan has recently increased, senior contractor officials and a
senior official at DCOM-SOF expressed concerns that the real authority continues to reside in Huntsville.35


Task Orders Lack Appropriate Quality Assurance Surveillance Plans
The Federal Acquisition Regulation and the Defense Federal Acquisition Regulation Supplement require
agencies to develop and manage a systematic, cost-effective quality assurance program to ensure that
contract performance conforms to specified requirements.36 These regulations also require that the
government conduct quality assurance “at such times (including any stage of manufacture or performance of
services) and places (including subcontractors’ plants) as may be necessary to determine that the supplies or
services conform to contract requirements.” Quality assurance surveillance plans should be prepared in
conjunction with the statement of work. The plans should specify (1) all work requiring surveillance and (2) the
method of surveillance.
Task orders 20 and 32 do not have quality assurance surveillance plans. Each task order has a performance
requirements summary in the form of a matrix. However, these matrices, which are appended to the task
orders, do not meet the federal requirements to develop a quality assurance surveillance plan. The matrices in
the two task orders are identical, suggesting the contracting agency used a template rather than developing
individual plans that are specific to each statement of work. These matrices identify four performance
objectives, including quality of service, adherence to schedule, cost control, and small business participation;
a government representative (an “evaluator”) is responsible for ensuring adherence to the performance
requirements.
The Counter Narcoterrorism Technology Program Office, which managed the contracts prior to their transfer to
NSRWA, developed a draft of an overall quality assurance surveillance plan or master plan, which was to be
used in the development of unique surveillance plans for task orders. The master plan provides direction on
developing the elements of the task order’s unique plans. However, the master plan is a draft and was not
officially approved as recommended by the DOD Office of Inspector General in 2009.37 In addition, a
document titled “Task Order Surveillance Approach” for task order 20 provides some information, such as
location of inspections; however, this document was never incorporated into the task order. Also, the
performance requirements summaries do not conform to the U.S. Army Contracting Command’s elements of a
good performance requirement summary, and the performance indicators are not sufficiently measureable as
defined in the Federal Acquisition Regulation 37.603 to identify the following: key performance indicators
requiring surveillance, when the COR will inspect and how surveillance will be conducted, and the method used
to assess whether performance objectives are being met. The COR for task orders 20 and 32 acknowledged
that the task orders do not contain quality assurance surveillance plans, but the COR stated that he is
preparing quality assurance surveillance plans.
The objective of contract surveillance is to monitor contractor performance and ensure the services received
are consistent with contract quality requirements and received in a timely manner. Without well-written plans,
the contracting officer cannot effectively evaluate the contractor performance when deciding to execute the
option years. In addition, the U.S. may not receive the best benefit of maintenance and logistics services


35The U.S. Army Aviation and Missile Command’s Aviation/Missile Resource Assessment and Analysis team completed an

assessment of SMW contract oversight, as well as SMW operational issues. The assessment provided multiple
recommendations, and senior officials stated they will travel to Kabul in March 2013 and be on the ground for 60 days in
an effort to reshape the NSRWA support and oversight of the task orders.
36Defense   Federal Acquisition Regulation Supplement, subpart 246.1 and Federal Acquisition Regulation, part 46.401 (a).
37Contracts   Supporting the DOD Counter Narcoterrorism Technology Program Office, Report D-2009-109, 9/25/2009, pgs.
24-25.




SIGAR Audit 13-13/Afghan Special Mission Wing                                                                    Page 14
provided if the need for process improvements are not quickly identified. Substandard contractor performance
may also adversely impact the SMW’s development and mission goals if pilots and mechanics do not receive
effective training.


Ongoing Maintenance and Logistics Support May Be Disrupted
The original period of performance for task order 20, including option years, was September 2008 through
August 2012, and the original period of performance for task order 32 was September 2009 through August
2012. However, through multiple task order modifications, DOD extended the period of performance for task
order 20 through September 30, 2013, and the period of performance for task order 32 through August 23,
2013.38 According to DCOM-SOF leadership, in November 2012, responsible U.S. military personnel in
Afghanistan drafted and submitted to NSRWA a follow-on performance work statement for a new contract
vehicle to provide similar support and replace the existing task orders.
However, NSRWA has not issued a request for proposal to award a new contract or task order to replace the
expiring task orders 20 and 32. A senior NSRWA program management official stated NSRWA plans to award a
new contract in the summer of 2013. According to this official, the new contract may promote efficiency by
combining task orders 20 and 32 into a single task order to promote transparency and streamline processes.
The new contract is expected to cover both the PC-12s and Mi-17s.
ETT and contractor personnel stated that a 90-day transition period between contractors is desirable to allow
overlap and continuity of operations. However, because NSRWA has not yet issued or taken meaningful action
to issue a new contract for the expiring support of task orders 20 and 32, there is concern that ongoing
operations and/or support may be interrupted.


CONCLUSION

Combating the narcotics trade and terrorism is the central mission of the ANA Special Operations Forces. In
July 2012, the Afghan government commissioned the SMW to provide critical air support for counternarcotics
and counterterrorism operations in Afghanistan. Since then, DOD has obligated nearly $122 million to develop
the SMW, awarded $771.8 million more to purchase 48 new aircraft, and plans to spend hundreds of millions
more for oversight, maintenance, training, and logistical support. This is a massive financial investment in the
SMW, given that the Afghans have not yet agreed to NTM-A’s concept for reorganization within the Afghan
government to support the SMW and given the lack of planning to transfer critical maintenance and logistics
functions to the Afghans. We question the wisdom of moving ahead with the provision of 30 new Mi-17s and
18 PC-12s unless these issues are properly addressed. We believe that the purchase and delivery of the
aircraft should be contingent on the SMW’s achievement of personnel and maintenance and logistics support
milestones and indications that the SMW has the capacity to execute its mission and operate and maintain its
fleet. Without an effective support structure, U.S.-funded SMW aircraft could be left sitting on runways in
Afghanistan, rather than supporting critical missions, resulting in waste of U.S. funds.
Regarding ongoing DOD contractor support for the SMW, without well-written task orders to provide
maintenance, logistics, and supply order services, and without effective oversight of those task orders, DOD’s
ongoing financial investment in the SMW is also at risk. The lack of an effective quality assurance surveillance
plan and adequate performance metrics increases the risk that contractors will underperform when providing

38Multiple
         DOD organizations had responsibility for executing each task order since they were first signed, including
Counter Narco-Terrorism Technology Program Office and now NSRWA. Each of these DOD organizations executed task
order modifications extending the periods of performance. According to the U.S. Army Contracting Command, task orders
20 and 32 cannot be extended beyond the current performance period without an additional sole source justification.




SIGAR Audit 13-13/Afghan Special Mission Wing                                                                  Page 15
these support services, including training of Afghans, which could result in wasted funds. If contractors fail to
provide an effective level of maintenance or fail to order the right parts and supplies in a timely manner, the
SMW may experience grounded aircraft that will undermine the Afghans’ ability to execute counternarcotics
and counterterrorism missions, which in turn adversely impacts stability and the security environment in the
country.


RECOMMENDATIONS

To justify DOD purchases of new aircraft for the SMW, SIGAR recommends that the Under Secretary of Defense
for Acquisition, Technology, and Logistics:
            1. Suspend all activity under the contracts awarded for the 48 new aircraft for the SMW until the
               memorandum of understanding between MOI and MOD is completed and signed.

            2. Provided the memorandum of understanding between the MOI and MOD is completed and
               signed, set clear personnel and maintenance and logistics support milestones for the SMW and
               tie the acquisition and delivery of the new aircraft to successful completion of these milestones.
To improve Afghan sustainment of maintenance and logistics management for the SMW as the U.S. departs,
SIGAR recommends that NSRWA and the Commander of DCOM-SOF jointly:
            3. Develop a plan for transferring maintenance and logistics management, including procurement of
               spare parts, to the Afghans. As part of the plan, develop appropriate performance metrics to
               measure contractor performance and appropriate milestones.
            4. Incorporate the performance metrics and milestones into a proposed statement of work for the
               new maintenance and logistics contracting action.
To strengthen contractor performance on logistics, SIGAR recommends that the Commander of Army
Contracting Command direct NSRWA Contracting Division to:

            5. Modify task orders 20 and 32 to incorporate performance metrics and appropriate quality
               assurance surveillance plans.
            6. Ensure that any new contract/task order contains these metrics and plans.

            7. Deploy contracting officer representatives to Afghanistan with the appropriate level of authority
               and the requisite experience to effectively oversee contractor support for the SMW.


AGENCY COMMENTS

SIGAR received written comments on a draft of this report from the Office of the Secretary of Defense (OSD),
NTM-A/CSTC-A, NSWRA, and the U.S. Army Materiel Command. We made revisions to the report, as
appropriate.
OSD and NTM-A/CSTC-A did not did not concur with our first recommendation. One of their reasons for
disagreeing with the recommendation was that they have already awarded contracts for the aircraft. However,
while the contract for the 18 PC-12 fixed wing aircraft had already been awarded when these entities received
our draft report,39 DOD had not yet awarded the contract to Rosoboronexport for the 30 Mi-17 rotary wing

39   This was noted in both our draft and final reports.




SIGAR Audit 13-13/Afghan Special Mission Wing                                                              Page 16
aircraft. The draft recommendation, therefore, was for DOD to suspend plans to purchase additional aircraft.
We consider it unfortunate that DOD went forward with these plans in light of the significant problems we
identified in our draft report.
Other reasons OSD and NTM-A/CSTC-A disagreed with our first recommendation were that: (1) delaying
contract awards would unacceptably delay efforts to develop the SMW into a capable force; and (2) ISAF is
currently engaged with the Afghan government to finalize a charter that would accomplish the purposes of the
memorandum. However, our work shows that the impediments to developing the SMW into a capable force are
not related to the timing of contracting actions, but rather to significant challenges in recruiting and training. A
formal agreement between the MOI and MOD would address many of these problems, and we are encouraged
that ISAF is taking steps to finalize a charter. Nevertheless, until such an agreement is reached, we maintain
that DOD should not acquire or deliver the new aircraft to the SMW.
OSD concurred with the other six recommendations and stated that appropriate DOD stakeholders are already
taking action to implement them and mitigate the risks discussed in the audit report. NTM-A/CSTC-A also
concurred with these six recommendations and identified ongoing or planned actions to implement them. OSD
and NTM-A/CSTC-A’s comments and our responses to them are presented in appendix V.
NSRWA concurred with the two recommendations directed to it, and the U.S. Army Materiel Command
concurred with the three recommendations that were directed to it. Both NSRWA and the U.S. Army Materiel
Command identified ongoing or planned actions to implement our recommendations. NSRWA’s comments are
presented in appendix VI. We did not reproduce comments from the U.S. Army Materiel Command because the
command labeled its comments as “For Official Use Only.”




SIGAR Audit 13-13/Afghan Special Mission Wing                                                               Page 17
APPENDIX I - SCOPE AND METHODOLOGY

In July 2012, SIGAR initiated an audit of U.S. support for the Afghan Special Mission Wing (SMW). This audit
identifies (1) the extent to which the SMW has the capacity to independently perform its mission; and (2) the
effectiveness of U.S. government oversight of contracts/task orders to provide support to the SMW. We
reviewed aircraft daily status reports for the period November 15, 2011, through February 12, 2013.
To assess the extent to which the SMW has the capacity to operate and maintain its current and planned fleet,
we reviewed the North Atlantic Treaty Organization Training Mission–Afghanistan’s (NTM-A) concept of
operations for the SMW and the RAND study which informed it. We interviewed a U.S. military official who
played a major role in developing the concept. We also reviewed the memorandum of understanding that
outlined responsibilities to establish the SMW among the Office of the Deputy Assistant Secretary of Defense
for Counternarcotics and Global Threats (DASD CN&GT), the Office of the Deputy Commanding General,
Special Operations Forces (DCOM-SOF), NTM-A/Combined Security Transition Command – Afghanistan, and
the U.S. Drug Enforcement Administration. We reviewed contractor reporting that identified the status and
availability of SMW aircraft. We interviewed officials at the SMW embedded training team (ETT), U.S.
Department of State, U.S. Drug Enforcement Administration, DASD CN&GT, the Interagency Operations
Coordination Center–Afghanistan, and the Combined Joint Interagency Task Force.
SIGAR also reviewed financial information relevant to the proposed purchase of new aircraft for the SMW. We
toured the SMW maintenance hangar and warehouse, and we accompanied the SMW on a training flight. We
observed an English class for Afghan mechanics. We toured training facilities and observed flight simulator
training in the Czech Republic. We interviewed officials at the SMW; DCOM-SOF; the ETT; the Non-Standard
Rotary Wing Aircraft (NSRWA) program office; DASD CN&GT; contractors Northrop Grumman and Lockheed
Martin; the Afghan Ministry of Interior and the Counternarcotics Police–Afghanistan; Mi-17 flight training
contractor Lom Praha; and U.S. Army Aviation and Missile Command.
To assess the effectiveness of U.S. government oversight of two task orders valued at $772 million to provide
ongoing maintenance, logistics, and supply support to the SMW, we selected two key task orders that support
maintenance and repairs at the SMW as our focus because of their size and importance to the SMW
operations and sustainment. For each task order, we reviewed the base contract, the base task order, and the
modifications. We reviewed the task order performance work statements and quality assurance surveillance
plans. We analyzed agency internal control processes including the invoice review and payment process, as
well as processes to oversee contractor operations. We reviewed contracting officer representative
appointment letters. We interviewed officials at NSRWA Contracting Division, DCOM-SOF, the Counter-
Narcoterrorism Technology Program Office, the Defense Contracting Audit Agency, the Defense Contract
Management Agency, Northrop Grumman, Lockheed Martin, ARMA, and U.S. Army Aviation and Missile
Command.
We reviewed NSRWA Contracting Division internal controls as they relate to monitoring and evaluation of U.S.
contractors executing the two task orders in Kabul. We found that task orders lacked adequate performance
metrics and quality assurance surveillance plans with which to effectively evaluate contractor performance. We
also found that NSRWA Contracting Division did not have adequate oversight of the contractors on the ground
in Afghanistan. We discuss these control deficiencies in the body of our report.
We relied on aircraft mission capable rate data compiled and reported by a U.S. contractor. We noted that the
validity and reliability of the data were limited by the fact that the contractor self-reported, and there was no
evidence of U.S. government review of the data. To accomplish our objectives, we reviewed relevant guidance,
including the Federal Acquisition Regulation and section 1277 of the fiscal year 2013 National Defense
Authorization Act. We did not use computer-processed information and therefore did not assess its reliability.




SIGAR Audit 13-13/Afghan Special Mission Wing                                                             Page 18
We conducted our audit work in Kabul and Kandahar, Afghanistan; Pardubice, Ostrava, and Vyskov, the Czech
Republic; Huntsville and Fort Rucker, Alabama; Patrick Air Force Base, Florida; Fort Bragg, North Carolina;
Dahlgren and Manassas, Virginia; and Washington, D.C., from July 2012 to March 2013, in accordance with
generally accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. This audit was performed by SIGAR under the authority
of Public Law 110-181, as amended, and the Inspector General Act of 1978, as amended.




SIGAR Audit 13-13/Afghan Special Mission Wing                                                          Page 19
APPENDIX II - STATUS OF CURRENT MI-17 FLEET
The SMW currently controls 30 Mi-17s. Of the 20 used aircraft, 13 were obtained from the United States,
5were from the United Kingdom (5), and 2 were from Germany. Ten new aircraft are on loan from the Afghan
Air Force. According to ETT leadership, no loan terms are specified, and it is not known if the new Mi-17s will be
returned to the Afghan Air Force.

The status of each Special Mission Wing Mi-17 aircraft in the current fleet is identified in Table I.
Table I - Status of Special Mission Wing Mi-17 Aircraft, as of February 12, 2013.
                              Current                                                            Age
    Aircraft Statusa                                        Source                   Tail #
                             Location a                                                        (years) b

                           Afghanistan      Purchased, U.S. Department of Defense       609             21
 Fully Mission Capable c
                                            (DOD), Counternarcotics Funding             185             18
                                            Donated, Germany                            102              8

                                            Loan, Afghan Air Force d                    716             1+
                                                                                        717             1+
                                                                                        718             1+
                                                                                        719             1+
                                                                                        720             1+
                                                                                        721             1+
                                                                                        722             1+
                                                                                        729             1+

                           Afghanistan      Loan, Afghan Air Force d                    731             1+
 Not Mission Capable
 Maintenance e
                           Afghanistan      Purchased, DOD,                             291             30
 Waiting or Undergoing
                                            Counternarcotics Funding
 Depot Maintenance
                                            Donated, Germany                            101             20
                                            Donated, United Kingdom                     805             28
                                                                                        041             27
                                                                                        233             26
                                                                                        311             25
                                            Loan, Afghan Air Forced                     730             1+

                           Slovakia         Donated, United Kingdom                     303             27


                           United Arab      Purchased, DOD,                             447             29
                           Emirates         Counternarcotics Funding                    510             29
                                                                                        355             21
                                                                                        930             20
                                                                                        076             19
                           Germany          Procured, U.S. Army                         501             30
 Waiting Dispositionf
                                            Purchased, DOD,                             505             27
                                            Counternarcotics Funding                    506             23

                           Slovakia         Procured, U.S. Army                         503             24
                                                                                        502             21



SIGAR Audit 13-13/Afghan Special Mission Wing                                                                Page 20
                                  Current                                                                           Age
    Aircraft Statusa                                                   Source                         Tail #
                                 Location a                                                                       (years) b

 Source: SIGAR analysis of Office of the Deputy Commanding General Special Operations Forces data.
 Notes: a Status and current location of aircraft as of 2/12/2013. b Age of aircraft as of 10/21/2012. c Blue shading
 indicates aircraft in which fully operational equipment or systems are safe and correctly configured as designated by the
 U.S. Army. d Gray shading indicates aircraft indefinitely on loan from the Afghan Air Force. e Aircraft not capable of
 performing assigned missions because of maintenance requirements. f Aircraft that have crashed or are otherwise
 unserviceable and waiting inspection and disposition instructions.




SIGAR Audit 13-13/Afghan Special Mission Wing                                                                                 Page 21
APPENDIX III - ORGANIZATIONS SUPPORTING THE SPECIAL MISSION WING

Table II shows the organizations currently supporting the (SMW, as well as the mission of those organizations
and their relationship with the SMW.

 Table II - Organizations Currently Supporting the SMW
        Organization                           Mission                      Relationship with SMW

 North Atlantic Treaty          Jointly support the Afghan government       training oversight
 Organization (NATO) Training   in generating and sustaining the            equipping
 Mission-Afghanistan (NTM-      Afghan National Security Force,
 A)/Combined Security           developing leaders, and establishing
 Transition Command–            enduring institutional capacity to
 Afghanistan                    enable accountable, Afghan-led
                                security.

 Office of the Deputy           The NTM-A executive responsible for         Oversight of overall
 Commanding General             developing, training and supporting          development of the SMW
 Special Operations Forces      the establishment of the Afghan             oversight of aviation asset
                                National Army Special Operations
                                                                             distribution to ensure the
                                Command (ANASOC) and its
                                                                             SMW has the capacity to
                                subordinate units.
                                                                             conduct counternarcotics,
                                                                             counterterrorism, and
                                                                             special operations force
                                                                             missions
                                                                            coordinate the transition to
                                                                             all-Afghan crews for
                                                                             operational missions
                                                                            operational oversight and
                                                                             supervision of the Embedded
                                                                             Training Team (ETT)

 Embedded Training Team         Train, advise, and assist the SMW in        partners with SMW Afghans
                                order to provide an enduring                 and supervises training in
                                counterterrorism/narcotics special           Kabul
                                operations aviation capability in
                                support of Afghan national interests.

 Afghan National Army           Established July 2012 to organize,          operational oversight
 Special Operations             man, train, lead, and equip Afghan
 Command                        National Army Special Operations
                                Forces and to provide responsive and
                                decisive action in support of Afghan
                                Government security objectives.




SIGAR Audit 13-13/Afghan Special Mission Wing                                                              Page 22
 Deputy Assistant Secretary of    Provides management oversight to             policy and resource planning
 Defense for Counternarcotics     ensure that counternarcotics funds            oversight
 and Global Threats               are used to support DOD goals and in         counternarcotics operations
                                  compliance with applicable law. The
                                                                                and activities funding
                                  office manages the counternarcotics
                                  Central Transfer Account, a single U.S.      provides funding for initial
                                  budget line-item that funds DOD               flight training for some SMW
                                  counternarcotics requirements (except         pilots
                                  active duty military pay and service
                                  operations tempo).

 Program Management Non-          PM-NSRWA was established July 2010           Mi-17 procurement and
 Standard Rotary Wing             in Huntsville, Alabama to procure,            program management
 Aircraft (PM-NSRWA) Office       field, and sustain non-standard rotary        services
                                  wing aircraft for the U.S. and allied
                                                                               internal contracting division:
                                  countries. NSRWA Contracting Division
                                                                                contract management
                                  falls under Army Contracting
                                                                                services and oversight of
                                  Command-Redstone. NSRWA is
                                  located at Redstone Arsenal in                U.S. contractors supporting
                                  Huntsville, Alabama.                          the SMW in Afghanistan

 U.S. Drug Enforcement            Coordinates with federal, state, and         counternarcotics law
 Administration                   local agencies, and with foreign              enforcement expertise
                                  governments, in drug eradication             personnel vetting program
                                  programs, crop substitution, and
                                                                                development
                                  training of foreign officials. Supports
                                  counternarcotics missions by moving          tasking mission support
                                  passengers between bases and                 providing liaison officer and
                                  providing intelligence, surveillance,         planning support
                                  and reconnaissance services. As of
                                                                               occasional participation in
                                  October 2012, the U.S. Drug
                                                                                counternarcotics missions
                                  Enforcement Administration had 97
                                  positions in Afghanistan

 U.S. Department of State         Provides aviation support necessary          counternarcotics missions
 Bureau of International          for the establishment and operation of        air support, as available/as
 Narcotics and Law                air operations in support of the Chief        needed
 Enforcement Affairs, Office of   of Mission in Kabul, Afghanistan.
 Aviation

 Sources: SIGAR analysis of NTM-A, DOD, State, and Drug Enforcement Administration data




SIGAR Audit 13-13/Afghan Special Mission Wing                                                                 Page 23
APPENDIX IV - SPECIAL MISSION WING STRUCTURE AND COMMAND AND
CONTROL

The SMW’s current organizational command structure is explained in Figure I.

  Figure I - Special Mission Wing Organization and Command Structure


       SPECIAL MISSION WING STRUCTURE AND COMMAND AND CONTROL




                      Priority Tasking                                                 General
                      for Counternarcotics and                                          Staff
                      Ministry of Interior
                      Missions




         General Support
          Detachment


         ~
         Detachment
                                   ·-~
                                                                      .- .
                                                                                      Kandahar   Mazar-e-Sharif




            •    Ministry of Interior                        Coordination
                 Ministry of Defense             ------+     Operational Control
                                                 - - ,._     Administrative Control
                                                 · --· ,..   Priority Tasking



  Source: SIGAR analysis of DCOM-SOF data.




SIGAR Audit 13-13/Afghan Special Mission Wing                                                                     Page 24
APPENDIX V - COMMENTS FROM THE OFFICE OF THE SECRETARY OF DEFENSE
AND THE NORTH ATLANTIC TREATY ORGANIZATION TRAINING MISSION-
AFGHANISTAN/COMBINED SECURITY TRANSITION COMMAND-AFGHANISTAN
AND SIGAR’S RESPONSE



      !&\                   O FFICE OF THE A SS ISTANT SECRETA RY OF D EFENSE
                                                2700 DEFENSE P ENTAGON


      ~
                                              WASHINGTON , DC 20301 -2 7 00


       AStAN & PACIFIC
      SECURITY M~AIR$




              Mr. John Sopko                                                                       21 June 2013
              Special Inspector General for Afghanistan Reconstruction
              1550 Crystal City, Suite 900
              Arlington. VA 22202

              Mr. Sopko:

                This is the Department of Defense response to Special Inspector General for Afghanistan
              Reconstruction Draft Audit 13-13, ·'Afghan Special Mission Wing: DoD Plans to Spend $908
              Million to Build Air Wing that the Afghans Cannot Operate and Maintain."

                 The U.S. strategic objective in Afghanistan is to ensure it will never again be used as a
              staging area for terrorist attacks against the United States. Developing the capabilities of the
              Afghan defense forces is critical to this objective. The Department appreciates the important
              role SIGAR plays in conducting oversight of our programs in developing the Afghan forces to
              ensure we are supporting this objective.

                 The first recommendation-that the Department should suspend plans to purchase the 48 new
              aircraft for the Special Mission Wing (SMW) until and unless the memorandum of agreement            Comment 1
              between the Afghan Ministries of Defense and Interior is completed and signed-would not be
              in our national interest. Delaying contract award pending agreement between the ministries on
              transition of SM W administrative control would unacceptably delay our efforts to develop the
              SMW into a capable force. TSAF is currently engaged with GlRoA on an Afghan Air Force
              charter to accomplish the purposes of the MOU. Further, the contract for the PC- 12s was signed     Comment 2
              on October 13th, 20 12, and the contract for the Mi- 17s was final ized on June 16th, 20 13.

                 The Department concurs with the other six recommendations. Comments from NATO
              Training Mission-Afghanistan/Combined Security Transition Command-Afghanistan are
              enclosed with this memorandum. Organizations directed in the draft audit to respond have
              submitted their responses directly to SIGAR.

                  DoD acknowledges the significant challenges outlined in the audit; however, its title is
              misleading. The SMW was formally established less than a year ago and sustainment efforts.
              including training, are presently underway. Delivery of the aircraft in question will take place
              over the next eighteen months. This will include training on how to operate and maintain the
              aircra.fi and associated equipment.

                 The implementation of recommendations 2 through 7, which appropriate DoD stakeholders
              are already pursuing, wi ll mitigate the risks discussed in the audit report.




SIGAR Audit 13-13/Afghan Special Mission Wing                                                                        Page 25
                  Thank you for the opportunity to comment on this draft report. Please direct any questions
            or comments to Captain Donna J. Buono, U.S. Army, at                   .



                                                      ~· }~
                                                        MICHAEL J. DUMONT
                                                        Deputy Assistant Secretary of Defense
                                                        Afghanistan, Pakistan & Central Asia


             Enclosures:
             As stated




                                                           2




SIGAR Audit 13-13/Afghan Special Mission Wing                                                                  Page 26
                                                         HEADQUARTERS
                                                NATO TRAINING MISSION · AFGHANISTAN
                                       COMBINED SECURITY TRANSITION COMMAND · AFGHANISTAN
                                                      KABUL. AFGHANISTAN
                                                          M'OAE09356
                      REPLY TO
                      ATTENTION OF
              NTM-A/CSTC-i\                                                                                   24 JUN 2013


              MEMORANDUM THRU              United States Forces- Afghanistan (CJ IG). APO AE 09356
                                           United States Central Command (CCIG), MacDill AFB. f'L 33621

              I'OR:    Office of the Special Inspector General for Afghanistan Reconstruction
                       2530 Crystal Drive. Arlington, VA 22202

              SUBJECT: NTM-NCSTC-A and NSOCC-A response to the Draft Report "Afghan Special Mission
                       Wing: DOD Plans to Spend $908 Million to Build Air Wing that the Afghans Cannot
                       Operate nad Maintain" (Report No. SIGAR-Audit-13-13)

              REFERENCE: SIGAR Draft Report. dated JUN 2013. Office of the Special Inspector General for
              Afghanistan Reconstruction (SIGAR).

              I . The purpose o f this memorandum is to provide responses to SIGAR 's draft report.

              2. Point of contact for this action is COL Allen Chappell at DSN                  or ~ia   ~:-mail   at
                                                       .




                                                                   &i.~~
                                                                   Lieutenant General. US Army
                                                                   Commanding General

              Enclosure:
              NTM-AICSTC-AINSOCC-i\ Response to Draft Report




SIGAR Audit 13-13/Afghan Special Mission Wing                                                                               Page 27
                                                Comment 1




SIGAR Audit 13-13/Afghan Special Mission Wing         Page 28
                 (4) Incorporate the performance mctrics and milestones into a proposed statement of work
                 for the new maintenance and logistics contract action. CONCUR
                 • Made recommendation to PMNSRW to have performance melrics included in new CLS
                   contract
                 • Currently waiting review of final PWS

                 (5) Modify task orders 20 and 32 to incorporate performance metrics and appropriate quality
                 assurance surveillance plans. CONCUR (witb comment)
                 • Agree with the concept of including performance mctrics to T.O. 20 & 32. however this
                   effort would take approx 90 days and there is not enough time left on the task orders to
                   modify (T.O. 32 ends on 23 Aug: T.O. 20 ends on 30 Sep).

                 (6) Ensure that the new contract/taSk order contains these metrics and plans. CONCUR
                 • I lave made recommendations to PMNSRW for new CLS contract to include such metrics
                 • Currently waiting review of final PWS


                 (7) Deploy Contracting Officer Representatives (COR) to Afghanistan with the appropriate
                 level of authority and the requisite experience to effectively oversee contractor support for
                 the SMW. CONCUR
                 • A COR is has been on-site with the ETI since April 2013




                                                                  PJ~/L~4
                                                                   t\I.I.F.N M . C~LL
                                                                   COL. SF
                                                                   NSOCC-NCSTC-A SOF Cell Director




              Attachements:
              I. SMW Capability Growth Chart




SIGAR Audit 13-13/Afghan Special Mission Wing                                                                    Page 29
                                                SIGAR’s Response

        1. SIGAR’s draft report recommended that DOD suspend plans to purchase the additional aircraft for
           the SMW. Unfortunately, after receiving this draft report, DOD awarded the $553.8 million
           contract modification to Rosoboronexport for the 30 Mi-17 helicopters. We are disappointed by
           this decision and continue to question the wisdom of this contract action. We have, therefore,
           revised our recommendation to urge DOD to suspend all activity under these two contract awards
           until the memorandum of understanding is signed between the MOI and MOD.
        2. We disagree that delaying the acquisition and delivery of aircraft would also delay efforts to
           develop the SMW into a capable force. Our work shows that the impediments to developing the
           SMW are recruiting and training challenges, many of them driven by the absence of a formal
           agreement between the MOD and the MOI. We are encouraged by ISAF’s efforts to develop an
           Afghan Air Force charter with the Afghan government. Under the terms of our recommendation,
           acquisition and delivery of additional aircraft for the SMW could proceed upon successful
           completion of this charter.




SIGAR Audit 13-13/Afghan Special Mission Wing                                                       Page 30
APPENDIX VI - COMMENTS FROM THE NON-STANDARD ROTARY WING
AIRCRAFT PROJECT OFFICE



                                               DEPARTMENT OF THE ARMY
                                             PROGRAM EXECUTIVE OFFICE, AVIATION
                                      NON-sTANDARD ROTARY WING AIRCRAFT PROJECT OFFICE
                                                   215 WYNN DRIVE, SUITE 201
                                                  JIUNTSVlLLE, AL 35805-1944




             SFAE-AV-NS                                                                              19June20 13



             MEMORANDUM FOR Assistant Inspector General for Audits and Investigations, Special Inspector
             General for Afghanistan Reconstruction (S IGAR), I 550 Crystal City, Suite 900, Arlington, VA 22202

             Subject: Special Inspector General for Afghanistan Reconstruction (SIGAR) Draft Audit 13-13, Afghan
             Special Mission Wing: DOD Plans to Spend $908 Million to Build Air Wing that the Afghans Cannot
             Operate or Maintain


             I. The subj ect report makes recommendations to the Non-Standard Rotary Wing Ai rcraft (NSRWA)
             Project Management Office (PMO) to improve the Afghan sustai nment of maintenance and logistics
             management:

                 a. #3- Concur with Recommendation: The NSRWA PMO has developed performance metrics and
                 milestones to improve the overall sustainment posture of the Afghan rotary w ing aviation fleet.
                 DCOM SOF is currently refining plans for transfer and transition to the Afghans. Once the plan is
                 finalized, the NSR WA PMO, working in concert with DCOM SOF will adjust the performance
                 metrics and milestones to accommodate any proposed transition scenario.

                b. #4 - Concur with Recommendation: Once the DCOM SOF transition plan is approved, the
                NSRWA PMO wi ll work with ACC-R to incorporate the milestones and performance metrics
                (recommendation #3) by contract amendment/modification into tht: nt:w coutract.


             2. Point of Contact for thi s memorandum is Mr. David Pinckley,               ,
                                              l.




                                                           ~A.L__
                                                            Project Manager (A), Non-Standard
                                                               Rotary Wing Aircraft Project Office




SIGAR Audit 13-13/Afghan Special Mission Wing                                                                        Page 31
APPENDIX VIII - ACKNOWLEDGMENTS

Matt Dove, Senior Audit Manager
Stoughton Farnham, Senior Auditor
Jerome Goehring, Auditor
Parker Laite, Senior Program Analyst
William Shimp, Senior Auditor




SIGAR Audit 13-13/Afghan Special Mission Wing   Page 32
                                  This audit report was conducted under
                                        project code SIGAR-064A.




SIGAR Audit 13-13/Afghan Special Mission Wing                             Page 33
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs
                                           Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
